Nos. 20-543 & 20-544
IN THE

JANET L. YELLEN, SECRETARY OF THE TREASURY,
Petitioner,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.,
Respondents.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,
Petitioners,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit
SUPPLEMENTAL RESPONSE OF RESPONDENTS
CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION, ET AL.
TO UTE INDIAN TRIBE’S MOTION REGARDING ORAL ARGUMENT

The respondents who are signatories to the Brief of Respondents Confederated
Tribes of the Chehalis Reservation et al. file this supplemental response to the
pending motion for divided argument filed by respondent Ute Indian Tribe of the
Uintah and Ouray Reservation. That motion is due to be considered at the April 16

conference. Since the undersigned respondents filed their initial response to the
motion for divided argument, all respondents have been in discussions about the oral
argument in this case, which is scheduled to be held on April 19. In light of those
discussions and further consideration, the undersigned respondents clarify that they
do not oppose the Ute Tribe’s motion for divided argument.

2

Respectfully submitted,
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 K Street, NW
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

RIYAZ A. KANJI
Counsel of Record
KANJI & KATZEN, P.L.L.C.
303 Detroit Street, Ste. 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
CORY J. ALBRIGHT
KATIE E. JONES
LYNSEY R. GAUDIOSO
KANJI & KATZEN, P.L.L.C.
811 1st Avenue, Ste. 630
Seattle, WA 98104
(206) 344-8100
calbright@kanjikatzen.com
kjones@kanjikatzen.com
lgaudioso@kanjikatzen.com

Co-Counsel for Confederated Tribes of the Chehalis Reservation and Tulalip
Tribes
Counsel for Akiak Native Community, Aleut Community of St. Paul Island,
Asa’carsarmiut Tribe, and Houlton Band of Maliseet Indians
JOHN E. ECHOHAWK
NATIVE AMERICAN RIGHTS FUND
1506 Broadway
Boulder, CO 80302
(303) 447-8760
jechohawk@narf.org

ERIN C. DOUGHERTY LYNCH
MATTHEW N. NEWMAN
WESLEY JAMES FURLONG
MEGAN R. CONDON
NATIVE AMERICAN RIGHTS FUND
745 West 4th Avenue, Ste. 502
Anchorage, AK 99501
(907) 276-0680
dougherty@narf.org
mnewman@narf.org
wfurlong@narf.org
mcondon@narf.org

Counsel for Arctic Village Council, Native Village of Venetie Tribal
Government, Nondalton Tribal Council, and Rosebud Sioux Tribe
NICOLE E. DUCHENEAUX
BIG FIRE LAW & POLICY GROUP LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(531) 466-8725
nducheneaux@bigfirelaw.com
Counsel for Cheyenne River Sioux
Tribe

LISA KOOP GUNN
Senior Attorney, Tulalip Tribes
6406 Marine Drive
Tulalip, WA 98271
(206) 683-5667
lkoop@tulaliptribes-nsn.gov
Counsel for Tulalip Tribes
3

HAROLD CHESNIN
Lead Counsel for the Tribe
420 Howanut Road
Oakville, WA 98568
(360) 529-7465
hchesnin@chehalistribe.org
Counsel for Confederated Tribes of
the Chehalis Reservation
BRADLEY G. BLEDSOE DOWNES
General Counsel
2332 Howland Hill Road
Crescent City, CA 95531
(707) 465-2610
bdownes@elk-valley.com
Counsel for Elk Valley Rancheria,
California
LORI BRUNER
Quinault Office of the Attorney
General
136 Cuitan Street
Taholah, WA 98587
(360) 276-8215, Ext. 1403
LBruner@quinault.org
Counsel for Quinault Indian Nation
ALEXANDER B. RITCHIE
Attorney General
P.O. Box 40
16 San Carlos Avenue
San Carlos, AZ 85550
(928) 475-3344
alex.ritchie@scat-nsn.gov
Counsel for San Carlos Apache
Tribe

DOREEN MCPAUL
Attorney General
PAUL SPRUHAN
Assistant Attorney General
JASON SEARLE
Navajo Nation Department of Justice
P.O. Box 2010
Window Rock, AZ 86515
(928) 871-6345
dmcpaul@nndoj.org
pspruhan@nndoj.org
jasearle@nndoj.org
Counsel for Navajo Nation
ERIC DAHLSTROM
APRIL E. OLSON
ROTHSTEIN DONATELLI LLP
1501 W. Fountainhead Parkway
Ste. 360
Tempe, AZ 85282
(480) 921-9296
edahlstrom@rothsteinlaw.com
aeolson@rothsteinlaw.com
RICHARD W. HUGHES
DONNA M. CONNOLLY
REED C. BIENVENU
ROTHSTEIN DONATELLI LLP
1215 Paseo de Peralta
Santa Fe, NM 87501
(505) 988-8004
rwhughes@rothsteinlaw.com
dconnolly@rothsteinlaw.com
rbienvenu@rothsteinlaw.com
Counsel for Pueblo of Picuris
Co-Counsel for Navajo Nation

APRIL 15, 2021

4

